OIG Audit Report GR-40-09-003

Compliance with Standards Governing Combined DNA Index System Activities at the Tennessee Bureau of Investigation Knoxville Crime Laboratory, Knoxville, Tennessee
Audit Report GR-40-09-003
June 2009
Office of the Inspector General


Executive Summary


The Audit Division, Office of the Inspector General, has  completed an audit of compliance with standards governing Combined DNA Index  System (CODIS) activities at the Tennessee Bureau of Investigation Knoxville  Crime Laboratory (Laboratory).   The Federal  Bureau of Investigation’s (FBI) CODIS program blends forensic science and  computer technology to provide an investigative tool to federal, state, and local  crime laboratories in the     United States, as well as  those from selected international law enforcement agencies.   The CODIS program allows  laboratories to compare and match DNA profiles electronically  to assist law enforcement in solving crimes and identifying missing or unidentified persons.1 The FBI’s CODIS Unit manages CODIS and is  responsible for developing, providing, and supporting the program to foster the  exchange and comparison of forensic DNA evidence. 
               The FBI  implemented CODIS as a distributed database with hierarchical levels that  enable federal, state, and local crime laboratories to compare DNA profiles  electronically.   The  hierarchy consists of three distinct levels that flow upward from the local  level to the state level and then, if allowable, the national level.   The National DNA Index System (NDIS), the  highest level in the hierarchy, is managed by the FBI as the nation’s DNA  database containing DNA profiles uploaded by law enforcement agencies across  the United States.   NDIS enables the  laboratories participating in the CODIS program to compare electronically DNA  profiles on a national level.   The State  DNA Index System (SDIS) is used at the state level to serve as a state’s DNA  database containing DNA profiles from local laboratories and state  offenders.   The Local DNA Index System  (LDIS) is used by local laboratories. 
The objectives of our audit were to determine if the:   (1) Laboratory was in compliance with the  NDIS participation requirements; (2) Laboratory was in compliance with the  Quality Assurance Standards (QAS) issued by the FBI; and (3)  Laboratory’s  forensic DNA profiles in CODIS databases were complete, accurate, and allowable  for inclusion in NDIS.
We determined that the Laboratory  was generally in compliance with those standards governing CODIS activities  that we reviewed.   However, we noted the two  following exceptions.

The Laboratory did not always timely notify investigators  of confirmed matches.   The OIG uses a  standard of 2 weeks to determine whether forensic Laboratories timely notify  investigators of confirmed matches.   We  tested 5 of 21 matches made by the Laboratory during February 22, 2002, to         February 9, 2009, and found the Laboratory  notified investigators late in three instances.    One late notification occurred 19 days after the match confirmation,  another 37 days after confirmation, and a third, 135 days after confirmation.2 Laboratory staff could not explain these  delays.
We reviewed 87 of 345 forensic profiles uploaded  into NDIS from August 17, 2001, through February 5, 2009.   We found 18 unallowable, incomplete, or  inaccurate profiles.   Thirteen profiles  uploaded during 2002 or earlier were unallowable because the profile belonged  to a victim, someone other than a putative perpetrator, or was not obtained from  crime scene evidence.   Two other profiles  uploaded on August 2, 2007, and January  9, 2008, were missing a value at one locus, and three profiles uploaded  on November 27, 2001, March 22, 2004, and November 13, 2007, contained one or more  incorrect values at one locus.  

To address the Laboratory’s  compliance with standards governing CODIS activities, we made three  recommendations, which are discussed in detail in the Findings and  Recommendations section of the report.    Our audit scope and methodology are detailed in Appendix I of the report  and the audit criteria are detailed in Appendix II. 
We discussed the results of our  audit with Laboratory officials and have included their comments in the report  as applicable.   


 

Footnotes

DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells that  contains encoded information necessary for building and maintaining life.  Approximately 99.9-percent of human DNA is  the same for all people.  The differences  found in the remaining 0.1-percent allow scientists to develop a unique set of  DNA identification characteristics (a DNA profile) for an individual by  analyzing a specimen containing DNA.
NDIS operational procedures require CODIS laboratories  to verify interstate matches produced by NDIS with one another, also known as  “confirmation’ of a match.





 




Return to OIG Home Page